BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-1566, David
Cassirer, et al. v. Thyssen-Bornemisza Collection
Foundation, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 29th day of July 2021:
David Boies
Boies, Schiller & Flexner LLP
333 Main Street
Armonk, NY 10504
(914) 749-8200
dboies@bsfllp.com

Counsel for Petitioners
Sarah Erickson Andre
Counsel of Record
Thaddeus J. Stauber
Nixon Peabody LLP
300 South Grand Avenue
Suite 4100
Los Angeles, CA 90071
(213) 629-6076
sandre@nixonpeabody.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

' Cincinnati , Oh io 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 29, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

Notary Public
[seal]

JOHN D. GALI..J\GHER
Ncir1 1 r 1b:ic, State o1 Ohio
M , l irmnis,ion Expires
JrEltiruary 14, 2._:i

